No.

IN THE
SUPREME COURT OF THE UNITED STATES

f?\ i

— petitioner n

MAKSIM M. STEFANYUK

ifn tij1

(Your Name)

Si

■&.

r

hV\i

'fife—1

VS.

UNITED STATES

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

FILED
AUG 18 2020
OFFICE OF THE CLERK
qi 1PRFME COURT, U.S._

THE COURT OF APPEALS FOR THE EIGHTH CIRCUIT

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

MAKSIM M. STEFANYUK

(Your Name)

(Federal Correctional Institution)
Post Office Box 1000
(Address)
OXFORD, WISCONSIN, 53952
(City, State, Zip Code)
NA

(Phone Number)

RECEIVED
AUG 2 6 2020
©FFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTION(S) PRESENTED
1.)

When a defendant in Federal Criminal Court proceedings requests
to review, prior to trial, the evidence that is in the government's
possession that is used against him, and when that evidence is
singularly important to him because that evidence may be impeaching/
exculpatory, and when that evidence is destroyed prior to trial
while in the government's possession and/or care, may the trial go on
without the requested evidence, even if the evidence has been
destroyed by the government?

2. )

Is the government to be held responsible for destroying the said
impeaching/exculpatory evidence prior to trial—evidence that may
favor the defendant?

3. )

Should the convictions that were rendered by such a compromized
trial be vacated/dismissed or set aside?

4. )

In a criminal case that is headed for trial, is it lawful and/or
right for either party to remove and/or destroy evidence, prior
to trial, in order to gain a legal advantage in/for the outcome of
the trial, either intentionally or inadvertently?

PAGE

I

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

PAGE

II

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-10

REASONS FOR GRANTING THE WRIT

11

CONCLUSION

12

INDEX TO APPENDICES
APPENDIX A

COURT OF APPEALS *8TH CIRCUIT DECISION

APPENDIX B - DISTRICT COURT DECISION
APPENDIX C - DENIAL OF REHEARING EN BANC/PANEL
APPENDIX D — LETTERS & DIRECTIVES TO JASON TUPMAN (Exhibits 1-3)
APPENDIX E - NA
APPENDIX F

NA

PAGE

111

TABLE OF AUTHORITIES CITED
CASES:

PAGE NUMBER:

1.)

JOHN L. BRADY vs. STATE OF MARYLAND (1963)

10

2.)

UNITED STATES vs. BAGLEY (1985)

10

STATUTES AND RULES:
NA

i

OTHER:
NA

PAGE

IV

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[x] reported at 944 F.3d 761 ; U.S. App. Lexis 36662 ; or,

A

to

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was DECEMBER 11th, 2019
[ ] No petition for rehearing was timely filed in my case.
|X] A timely petition for rehearing was denied by the United States Court of
2020
Appeals on the following date: JUNE
, and a copy of the
order denying rehearing appears at Appendix
c .
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
to and including____
(date) on
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

PAGE

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

NA (None Cited)

PAGE

3

STATEMENT OF THE CASE
Maksim M. Stefanyuk was charged in a four-count indictment with two counts,
...receipt and distribution of child pornography, one count of receipt of
of child pornography, and one count of failing to register as a sex offender.
The facts underlying the investigation and arrest were the subject of two
seperate evidentiary hearings—a hearing before the magistrate judge on
Stefanyuk's motion to supress, and a jury trial—and a pretrial conference.
Maksim M. Stefanyuk was held primarily at the Yankton County jail in Yankton,
South Dakota while in litigation, awaiting hearings and eventually a jury
trial.
Stefanyuk was represented by the Federal Public Defender Jason J. Tupman.
Stefanyuk told Tupman that he did not live at the address where he was
arrested and that the address at 2101 E. 31st St. was where his parents
lived, where eventually his girlfriend at the time—Sarah Morales—also
moved in.
Stefanyuk also explained that the internet service provider Midcontinent
Communications was for his parents' home and was paid by him to help his
parents financially. The same home had been Stefanyuk's home address at the
time of his prior federal prosecution involving child pornography, he had
explained, and that now he lived at, and registered, his current address in
Hills, MN. Stefanyuk also confided in Tupman that he had opened up his own
business with Erik Suborov called "eModdity, LLC'/ and that he and his girl­
friend Sarah Morales were not getting along because Morales failed to pay
rent to his parents throughout her entire stay with his parents in Sioux
Falls, South Dakota, and Stefanyuk broke-up with Morales as a result.
During the course of Stefanyuk's prosecution, he unsuccessfully resisted
admission of evidence derived from a continuously recording and remotely
accessible camera monitoring his parents' home and because the surveillance
camera's footage was lost and/or destroyed and was not recoverable.
The footage was never shown to Stefanyuk when he asked to review it and
likely use it for trial and show it to the jury.
1.) Background
On January 13th, 2017, Minnehaha County Sherriff's Detective Derek
Kuchenreuther, part of the Internet Crimes Against Children Task Force,
was looking online using special law enforcement software for computers
offering to share child pornography on a peer-to-peer network, Detective
Kuchenreuther located a computer he suspected of sharing multiple child
porn files.
South Dakota Division of Criminal Investigation (DCI) Agent Toby
Russell, also a member of the Internet Crimes Against Children Task Force,
was independently running a similar investigation on Febrruary 3rd, 2017.
Agent Russell's search uncovered 48 video files. Of these, 42 were complete.
The majority were child pornography.
Many of the files Agent Russell downloaded were the same as those that
were downloaded by Detective Kuchenreuther. At that time, Agent Russell
learned that Detective Kuchenreuther had run his own investigation on
January 13th, 2017, finding the same IP address with child porn.
Responding to a subpoena, Midcontinent Communications revealed that the
IP address accessed by Detective Kuchenreuther and Agent Russell belonged
to a subscriber/account holder by the name of Max Stefanyuk. .The physical
address associated with the IP address was 2101 E. 31st St. N., in Sioux
Falls, South Dakota. This same home had beenj Stefanyuk's home address at
the time of his prior federal prosecution involving child pornography, just
as Stefanyuk had stated.
PAGE

4

(STATEMENT OF THE CASE continued...)
Homeland Security Special Agent Charla Aramayo, assigned to the Inter­
net Crimes against Children Task ..Force in Sioux Falls, was referred the
investigation of this case. She began her investigation by reviewing the
download logs and materials Detective Kuchenreuther had collected to verify
that there was child pornography under the federal definition. She also
reviewed the information he obtained from Midcontinent Communications.
Aramayo continued to try and verify that Stefanyuk resided at his parents'
address at 2101 E. 31st St. N., in Sioux Falls. She drove by the location
a number of times and searched an online law enforcement database for records associated with the address. She also checked the license plate
numbers of the vehicles she saw at the address to find out whom the veh­
icles were registered to. None of them were registered to Stefanyuk, but
some were registered to members of the Stefanyuk family. One was registered
to his girlfriend Sarah Morales.
Aramayo found in-person surveillance to be impractical and sought dig­
ital assistance to acheive what in-person surveillance could not.
2.)

Around-the-clock digital Surveillance
On February 8th, 2017, Agent Aramayo requested the South Dakota Division
of Criminal Investigation (DCI) to install a pole camera. DCI Special
Agent Chad Carpenter installed the camera, testified to its capabili
and that the surveillance footage was later destroyed due to a major
video management service change, and that it was unfortunately not recoverable. No one sought a warrant before the installation of the device.
The camera ran continuously for two weeks from February 8th through
the 22nd, 2017. Agent Aramayo used the camera to monitor individuals coming
and going in order to prove that Stefanyuk lived at the residence.
The recordings made by the camera were unfortunately destroyed and
were not available for Stefanyuk to review and/or use at trial.
3.)

Stefanyuk*s Motion to Suppress

While detained at the Yankton County Jail in Yankton, South Dakota,
awaiting hearings and eventually trial, Stefanyuk learned through his
attorney that the DHS Special Agent Charla Aramayo had ordered DCI Special
Agent Chad Carpenter to install a covert surveillance camera at his parent s'
home at 2101 E. 31st St. N., Sioux Falls, South Dakota. Stefanyuk, upon
learning of the surveillance evidence in his Failure to Register alleg­
ation/charge, requested to view this video footage because it was the
primary evidence in his Failure to Register allegation/charge.
Soon thereafter the request to view the footage, Stefanyuk1s Public
Defender Jason J. Tupman notified him that Carpenter had accidently/in­
advertently "...lost the video." The Public Defender then recommended that
Stefanyuk should move to suppress any evidence derived from the pole camera as a result. The Public Defender told Stefanyuk, "We'll go to the
Suppression Hearing under the guise of a Trojan Horse to see what they
reveal... Thus, Mr. Stefanyuk agreed, and proceeded with the Suppression
Hearing.
And so, on or about June 14th, 2019, at approximately 9:00 AM, Stefanyuk

PAGE

5

X STATEMENT OF THE CASE CONTINUED • • • )
represented by appointed counsel Assistant federal Public Defender Jason J.
' Tupman, entered the Federal Court Building located in Sioux Ealls, South
Dakota, for the Suppression Hearing, with Honorable United States District
Judge Karen E. Schreier presiding.
D.C.I. , Special-Agent.Chad)Carpenter testified that covert surveillance
was installed by him at the residence 2101 E. 31st St. N • / Sioux Falls,
South Dakota, on February 8th, 2017, at 12:29 [P.M.?] (ShT Pg. 14, L. 5).
Carpenter then testified that the covert surveillance camera was taken
offline on February 22nd, 2017, at 8:00 A.M. (SHT Pg. 16, L. 7)..
Mr. Carpenter was then asked by the Prosecutor Jeff clapper, "...Was the
recording that this camera made from February 8th to February 22nd, was that
saved?" (SHT Pg. 16, L. 22 & 23), to which Mr. Carpenter affirmed, answer­
ing, "Yes" (SHT Pg. 16, L. 24).
Mr Clapper immediately followed with another question about its avail­
ability today: "And is it available today?" (SHT Pg. 16, L. 25), to which
Mr. Carpenter said, "No" (SHT Pg. 17, L.1).
Mr. Clapper shortly later asked Carpenter as to why the footage is no
longer available, and Mr. Carpenter stated, "February 22nd sticks in my mind
very clearly because at 8:00 A.M. I was in the process of making a major
Video Management Service Change..." (SHT Pg. 17, L. 5,through 14).
Then, Mr. Clapper, following, asked Carpenter if that footage is
recoverable, to which Carpenter said, "This particular recording was not
recoverable" (SHT Pg. 17, L. 16).
Later, during cross-examination by Federal Public Defender Jason J.
Tupman, Mr. Tupman asks Carpenter, "Okay. And is this an HD camera? Is it
filming in HD?" (SHT Pg. 19, L. 3 & 4), where Mr. Clapper objects, "You're
Honor, I'm going to object and claim the surveillance location privilege as
to the details of the equipment used" (SHT Pg. 19, L. 5 through 7).
Mr. Clapper objects again during the hearing shortly later, stating,
"Objection. Again, Your Honor, the surveillance location privilege" (SHT
Pg. 24, L. 11 & 12)*.
Later in the Suppression Hearing, Mr. Clapper explains as to why the tech­
nical information and the camera location is privileged information, where
Clapper states, "...the privilege is as to the nature and location of elec­
tronic surveillance evidence. That's privileged information" (SHT Pg. 24,
L. 23 through 25).
The judge states to Mr. Clapper, "Right. And I don't think you can
explore those issues without asking the agent to pinpoint where the camera
was. And I think that's especially important in this case, Jeff, because we
don't have the video. If we had the video, you would be able to surmise from
the angle of view when you looked at the video how high up the camera was
mounted, and whether it's at eye level from somebody passing by on the side­
walk or whether it's an overhead view. And that—I don't think that you
would argue that the defendant had no right to view the video if it still
existed" (SHT Pg. 26 & 27, L. 19 through 2).
Still argueing with Mr. Clapper, the judge says, "...if we had the video,
certainly we'd be playing the video in open court..." (SHT Pg. 27, L. 16
through 18), and, "...Why is that information privileged now that we don't
have the video?" (SHT Pg. 27, L. 21 & 22).

* Suppression Hearing Transcript citings are denoted as "SHT," followed
by the Suppression Hearing Transcript Page and Line numbers.
I.E.

(SHT Pg. #, L. §)

PAGE

6

(STATEMENT OF THE CASE continued...)
Then, a bit later, the judge states, "The information does not seem to me
to be privileged. Why is it privileged? If we had the video, we would be
able to see these things" (SHT Pg. 28, L. 14 through 17).
Despite that Carpenter had admitted that the video is not available and
not recoverable due to him making the major Video Management Service Change,
the judge suddenly reassures Mr. Carpenter that he is not to blame;
"...So now that we don't have the video, through no fault of Agent Carpenter's,
why is the information now suddenly privileged?" (SHT Pg. 28, L. 17 through
19).
Still arguing about privileged information, the judge proceeds to reassure
Agent Carpenter a second time that it's not hisfault that the footage has
been destroyed and is missing: "...That information is gone here. Again,
through no fault of Agent Carpenter' si' (SHT Pg. 31, L. 18 & 19).
Later during the Suppression Hearing, D.H.S. Special Agent Charla
Aramayo is called to the stand (SHT Pg. 48, L. 15); Special Agent Charla
Aramayo testifies to using the surveillance camera and seeing an unidenti­
fied subject arrive at the 2101 E. 31st St. N., Sioux Falls, South Dakota
residence (SHT Pg. 57 & 58, L. 12 through 23); She states, "I remember
looking at it one other time, and I went to the house right after that to
drive by..." (SHT Pg. 58, L. 20 through 23).
Then, about doing the physical drive-by of the Sioux Falls residence,
Aramayo explains, "...I believe that was the single time I actually—-I saw
him in person outside the house" (SHT Pg. 59, L. 24 & 25).
Mr. Clapper followed up with the question, "Did you see anyone else?"
(SHT Pg. 60, L. 1) .
n Aramayo answers that she in fact did see someone else with Stefanyuk;
"Yes. There was another young man that I thought was his brother" (SHT
Pg. 60, L. 2 & 3).
it Clapper then asked Aramayo if she identified the other "young man":
"Okay. You didn't positively identify the other person?" (SHT Pg. 60,
L. 4 & 5). Aramayo answered, "No," to his question (SHT Pg. 60, L. 6).
4.)

Execution of Search Warrant on Feb. 22nd, 2017
Based on her investigation, Aramayo obtained a search warrant for
Stefanyuk's parents home at 2101 E. 31st St. N. in Sioux Falls on February
22nd, 2017. The search was conducted the same day. Stefanyuk was present
along with his girlfriend Sarah Morales, mother, and grandmother. Aramayo
found Stefanyuk's driver license, which listed his parents address in
Sioux Falls.
A number of computers were found in an office accross from the bedroom.
Agents seized these computers. The primary computer was on. When agents
moved the mouse on the primary computer, the screen turned on and displayed
the login screen—the title displayed "eModdity, LLC" in blue words on a
white background, and "Max Stefanyuk" as the email address that was linked to the user account. EModdity was Stefanyuk's new company. The bedroom.,
door had a cipher lock and a broken alarm.
The primary computer tower was a white computer with the words "Stark
Enterprises" labeled on it in black wording. Aramayo removed the drives to
preview and prioritize them for forensic examination by Detective Kuchenreuther. Kuchenreuther eventually found child pornography on the hard drives.
The same day, with the consent of Stefanyuk's father, Agent Aramayo
also searched a residence in Hills, Minnesota associated with where Stefan­
yuk registered as his home as a sex offender.
v,., Mail belonging to Stefanyuk and others and clothing was found in this
house. The refrigerator was full of food, and dirty dishes were in the kitPAGE

7

(STATEMENT OF THE CASE continued...)
chen. Both the Hills, Minnesota and Sioux Falls homes were owned by
Stefanyuk's parents. Nothing was found at the Hills, Minnesota address.
Later a check of the Minnesota and South Dakota sex offender registration
revealed that Stefanyuk had indeed registered at the Hills, Minnesota add­
ress, and not at the Sioux Falls address.
5.)

Stefanyuk's Resistance to Admission of Prior Crimes Evidence

Prior to trial, the government filed its Notice pursuant to Federal Rules
of Evidence 404(b) and 414. The government sought admission of evidence
and testimony regarding the previous child pornography investigation of
Stefanyuk in 2011 and his subsequent conviction for that conduct in 2014.
Specifically, the government sought to introduce (1) the judgement of convction; (2) the factual ibasis statement from his plea agreement; and, (3)
testimony from Detective Kuchenreuther about the prior investigation he
conducted at the Sioux Falls residence with Stefanyuk as the target, which
included testimony regarding the forensic examination of Stefanyuk s computer and his statement.
Stefanyuk resisted via a motion in limine, because the footage intended
to be used as his primary evidence was destroyed, and without.the surveill^
ance ..footage..he„would-be unfairly prej.udiced._if such_evidence was admitted
during trial.
The district court denied Stefanyuk's motions in limine, finding the
evidence was both relevant and more probative than prejudicial. The court
ordered.>that a limiting instruction be read prior to introduction of any of
the prior crime evidence and also included within the final instructions to
the jury.
6.)

Trial and Sentencing

Stefanyuk was forced to proceed through trial without ever seeing the
surveillance footage, and/or ever having the option of presenting it to the
jury to show that he was not even at the scene or the time of the crime,
even though Aramayo knew his work schedule, and should be able to see him
on the footage—if (1) he actually lived at the Sioux Falls residence; (2)
how often he frequented the Sioux Falls residence, (3) who came and went
to and from the SiouxFalls residence; and, (4) whether the times and dates
of when the crime occured matched his work schedule, or others that frequ­
ented the residence.
Stefanyuk's trial began on July 17th, 2018 and lasted until July 19th,
2018 when the jury returned a verdict of guilty on all counts. The district
court sentenced Stefanyuk at the low end of his guideline range to 262
months on each of counts 1, 2, and 3, running each of these sentences con­
currently, and 120 months on his count 4 conviction for failing to register
(the Sioux Falls address) as a sex offender, to run concurrently with his
sentences on counts 1 through 3.

PAGE

8

(STATEMENT OF THE CASE continued...)
7.)

Appeal to the 8th Circuit Court of Appeals

Stefanyuk discussed what he wanted to present to the Court of Appeals
for the Eighth Circuit with his Federal Public Defender.Jason J. Tupman.
Stefanyuk stressed that he wanted Tupman to prepare his appeal premise
on the grounds that the government had removed and/or destroyed exculpatory
/impeaching surveillance evidence that would prove his innocense; and, that
by removing and/or destroying the footage the government had caused him
to lose his trial.
Stefanyuk also stressed—quite adamantly via telephone and mail correspondence from Oxford FCI—that Tupman not file any appeal brief without
showing/mailing the draft of the brief to Stefanyuk first for review, and
then only file it when/if Stefanyuk approved via a written approval and
sent it by mail.
Despite Stefanyuk's wishes/directives, Tupman filed the Appeal Brief
with the Court of Appeals for the Eighth Circuit without first showing/
the brief to Stefanyuk, consulting with Stefanyuk first, and/or
receiving Stefanyuk's approval to go ahead and file the brief.
vnk'UPman 1Js^ead founded the Appeal's grounds in the brief to be on Stefan® exPec^atlon of privacy—that Stefanyuk is to be free from continuous
electronic surveillance, that the district court erred in accepting
the ^^strate's report, that the district court also er?ed in
permitting the prosecution to offer evidence informing the jury about the
rnJntSton^mt^hStanSeS of4.hisJPrior conviction beyond the stipulated agreenffinoS adm^fc the judgement and statement of factual basis attendant to that
fense, and, that the court—over Stefanyuk's objection—permitted the
detective to testify about his previous investigation of Stefanyuk for possessmg chiM pornography, his search (at the time) of Stefanyuk's residence,
^S4.Knter^?ftl0n-,0f stefanyuk, and statements made by Stefanyuk—that all
f“is ^ditional evidence was cumulative of other proponsity evidence
admitted and was unfairly prejudicial to Stefanyuk as the similarities be­
tween the two investigations could tend to confuse jurors.
Stefanyuk finally received a copy of the Appeal Brief that Tupman had
prepared only after it had already been filed with the court without his
review and consent. None of the grounds Tupman had listed in the brief were
what Stefanyuk had asked Tupman to present the Court of Appeals.
Stefanyuk proceeded and filed his Motion for a Rehearing and Rehearing
. Banc, illustrating what Mr. Tupman had intentionally neglected to include
in the Appeal Brief. Stefanyuk.included a cover letter and all the surviv­
ing correspondence with Mr. Tupman (correspondence listing Stefanyuk's wishes)
with his .motion.
Unfortunately, Stefanyuk's motion for a Rehearing and Rehearing En Banc
was simply denied, and Stefanyuk's true appeal arguments were never voiced
or filed with the court.

* Some surviving correspondence with
th Tupman, with Stefanyuk's directives to
him, can be found in Appendix

PAGE

9

(STATEMENT OF THE CASE continued...)
The prosecution's removal of the surveillance footage was in direct
violation to its affirmative duty to disclose and present evidence favorable
to a defendant, as most prominently is associated with the court.'s decision
in Brady v Maryland, 373 US 83, 10 L. Ed. 2d 215, 83 S. Ct. 1194 (1963),
where Brady held "that the suppression by the prosecution of evidence fav­
orable to an accused upon request violates due process where the evidence
is material either to guilt or to punishment, irrespective of the good faith
or bad faith of the prosecution."
Had the destroyed surveillance evidence been presented and/or safeguarded
and made available for Stefanyuk to review and present it to the jury at his
trial, there is reasonable probability that "had the evidence been disclosed
to the defense, the result of the proceeding{s] would have been different)"
United States v Bagley. 473 US 667, 87 L. Ed. 2d 481, 105 S. Ct. 3375 (1985).
In Stefanyuk's trial, it would be very probable that, had he been able
to present the pole-camera surveillance footage to the jury, he would have
been found NOT guilty on all counts rather than.guilty, because the foot­
age would demonstrate ample proof against the prosecution's narrative that
Stefanyuk (1) was at the scene and the time of when the crime occured, (2)
that Stefanyuk lived at the 2101 E. 31st St. N., Sioux Falls address; and,
(3) the footage would show who and when was actually at the residence when
the crime had occured.
8.)

(Current) Appeal to the

Supreme Court

Stefanyuk now petitions the Supreme Court of the United States for the
Writ of Certiorari on behalf of the issues presented.

PAGE 10

REASONS FOR GRANTING THE PETITION
1.) Government agents and agencies should be held accountable
when they intentionally, or even inadvertently, destroy and/or
remove exculpatory evidence of the accused, especially those
heading to stand trial.
2.) If this kind of behavior by the Government is allowed—where the
Government can pick and choose what evidence the defendant can
have and use at trial, then citizens of the United States of
America will lose their constitutional right to a fair trial,
and/or their right/expectancy to due process.
3.) The petition for a writ of ceriorari should be granted because
Stefanyuk was obstructed from receiving a fair trial by the
Government removing key exculpatory/impeaching evidence that
should have been shown to the defense and the jury.

PAGE

11

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
Maksim M. Stefanyuk

Date: August ll&fchj 2020

PAGE

12

